No. 20-1223

In the Supreme Court of the United States
JOHNSON & JOHNSON and
JOHNSON & JOHNSON CONSUMER INC.,
Petitioners,
v.
GAIL L. INGHAM, et al.,
Respondents.
On Petition for a Writ of Certiorari to
the Missouri Court of Appeals for the Eastern
District
BRIEF OF THE CHAMBER OF COMMERCE OF
THE UNITED STATES OF AMERICA,
AMERICAN TORT REFORM ASSOCIATION,
NATIONAL ASSOCIATION OF MANUFACTURERS, COALITION FOR LITIGATION JUSTICE,
INC., AMERICAN PROPERTY CASUALTY INSURANCE ASSOCIATION, PHARMACEUTICAL RESEARCH AND MANUFACTURERS OF
AMERICA, AND BUSINESS ROUNDTABLE
AS AMICI CURIAE
IN SUPPORT OF PETITIONERS
EVAN M. TAGER
Counsel of Record
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
etager@mayerbrown.com
(additional counsel listed on signature page)

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES...................................... iii
INTEREST OF THE AMICI CURIAE .......................1
INTRODUCTION AND SUMMARY OF
ARGUMENT ..........................................................2
ARGUMENT ...............................................................4
A. The Improper Joinder Of Civil Cases
For Trial Is A Threat To Due Process. .............4
1. Joinder creates a tilted playing field
that favors plaintiffs through the
repetition of fact patterns and
claims. ..........................................................5
2. Joinder compromises the defendant’s
ability to present individual issues. ...........9
3. Joinder allows plaintiffs to present a
composite picture that obscures
weaknesses in individual claims. ............. 13
4. Joinder of claims governed by the
laws of different States inevitably
eliminates or obscures distinctions in
the law. ...................................................... 15
5. For an “immature” mass tort, joinder
eliminates natural variation and
opportunities to gain information
about the merits and value of the
claim........................................................... 16
B. Federal Courts Have Recognized That
Due Process Imposes Limits On The
Use Of Joinder In Civil Trials. ....................... 18

ii
TABLE OF CONTENTS—continued
Page
C. This Court’s Guidance Is Needed To
Establish Due Process Limitations On
The Use Of Joinder. ........................................ 21
CONCLUSION .......................................................... 22

iii
TABLE OF AUTHORITIES
Page(s)
Cases
In re Allied Chem. Corp.,
227 S.W.3d 652 (Tex. 2007) ................................. 17
Am. Surety Co. v. Baldwin,
287 U.S. 156 (1932) .............................................. 12
Arnold v. Eastern Air Lines, Inc.,
712 F.2d 899 (4th Cir. 1983) ................................ 18
In re Bristol–Myers Squibb Co.,
975 S.W.2d 601 (Tex. 1998) ................................. 18
In re Brooklyn Navy Yard Asbestos
Litig., 971 F.2d 831 (2d Cir. 1992) ...................... 18
Broussard v. Meineke Discount Muffler
Shops, Inc.,
155 F.3d 331 (4th Cir. 1998) ................................ 15
Cain v. Armstrong World Indus.,
785 F. Supp. 1448 (S.D. Ala. 1992) ............... 14, 20
Cantrell v. GAF Corp.,
999 F.2d 1007 (6th Cir. 1993) .............................. 13
Castano v. Am. Tobacco Co.,
84 F.3d 734 (5th Cir. 1996) .................................. 17
In re Consolidated Parlodel Litig.,
182 F.R.D. 441 (D.N.J. 1998)......................... 13, 14
Crouse v. Med. Facilities of Am. XLVIII,
86 Va. Cir. 168 (2013) .......................................... 10
Dupont v. S. Pac. Co.,
366 F.2d 193 (5th Cir. 1966) ................................ 19

iv
TABLE OF AUTHORITIES—continued
Page(s)
Hasman v. G.D. Searle & Co.,
106 F.R.D. 459 (E.D. Mich. 1985) ........................ 13
Johnson & Johnson Talcum Powder
Cases, 37 Cal. App. 5th 292 (2019) ...................... 16
Leeds v. Matrixx Initiatives, Inc.,
No. 2:10cv199, 2012 WL 1119220
(D. Utah Apr. 2, 2012).......................................... 13
Malcolm v. Nat’l Gypsum Co.,
995 F.2d 346 (2d Cir. 1993) ..................... 14, 18, 19
Neale v. Volvo Cars of N. Am., LLC,
794 F.3d 353 (3d Cir. 2015) ................................... 9
Nelson v. Nelson,
195 S.W.3d 502 (Mo. Ct. App. 2006) ................... 11
Philip Morris USA Inc. v. Scott,
561 U.S. 1301 (2010) .............................................. 3
United States v. Lane,
474 U.S. 438 (1986) ................................................ 2
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011) ................................................ 2
Statutes and Rules
N.J. Stat. Ann. § 2A:15-g.14(b)
(West 2021)............................................................. 9
N.C. Gen. Stat. Ann. § 1D-25(b)
(West 2021)............................................................. 9
N.D. Cent. Code § 32-03.2-11.4
(West 2021)........................................................... 10

v
TABLE OF AUTHORITIES—continued
Page(s)
S.C. Code Ann. § 15-32-530(A) (2021) ...................... 10
Tex. Civ. Prac. & Rem. Code § 41.008(b)
(West 2021)........................................................... 10
Va. Code Ann. § 8.01-38.1 (West 2021) .................... 10
Mo. R. Civ. P. 84.04 ................................................... 11
Other Authorities
American Cancer Society, Key Statistics
for Ovarian Cancer (Jan. 12, 2021),
www.cancer.org/cancer/ovariancancer/about/key-statistics.html ........................... 6
American Cancer Society, What Causes
Ovarian Cancer? (Jan. 12, 2021),
www.cancer.org/cancer/ovariancancer/causes-risks-prevention/whatcauses.html............................................................. 7
In re: Asbestos Pers. Injury Litig.,
No. 03-C-9600 (W. Va. Cir. Ct. Jan.
6, 2012), www.courtswv.gov/lowercourts/mlp/mlp-orders/asbestos2012-CMO.pdf ..................................................... 22
Manual for Complex Litigation, Fourth
§ 22.314 (June 2004) ............................................ 17

INTEREST OF THE AMICI CURIAE1
The Chamber of Commerce of the United States of
America is the world’s largest business federation,
representing approximately 300,000 direct members
and indirectly representing the interests of more than
three million companies and professional organizations of every size, in every industry sector, and from
every region of the country.
National Association of Manufacturers is the largest manufacturing association in the United States,
representing small and large manufacturers in every
industrial sector and in all 50 States.
American Tort Reform Association is a broadbased coalition of businesses, corporations, municipalities, associations, and professional firms that have
pooled their resources to promote reform of the civil
justice system with the goal of ensuring fairness, balance, and predictability in civil litigation.
Coalition for Litigation Justice, Inc. was formed
by insurers in 2000 as a nonprofit association to address and improve the litigation environment for asbestos and other toxic tort claims.
American Property Casualty Insurance Association is the primary national trade association for
home, auto, and business insurers.

Pursuant to Rule 37.6, amici affirm that no counsel for a party
authored this brief in whole or in part and that no person other
than amici, their members, and their counsel made a monetary
contribution to its preparation or submission. Counsel of record
received timely notice and all parties consented to the filing of
the brief.
1

2
Pharmaceutical Research and Manufacturers of
America is a voluntary, nonprofit association representing the nation’s leading research-based pharmaceutical and biotechnology companies.
Business Roundtable is an association of chief executive officers of over 200 leading U.S. companies
that together have more than $7 trillion in annual revenues and more than 15 million employees.
Many of amici’s members increasingly face litigation in which groups of plaintiffs seek to join their
claims together for trial. Amici’s members believe that
such joinder often impedes their ability to defend individual cases and creates unfair systemic biases that
favor plaintiffs. These due process concerns only increase as larger groups of plaintiffs are joined together for trial. Amici therefore have a substantial interest in the due process limits on the joinder of claims
in civil litigation.
Amici file this brief to explain the threat of involuntary joinder faced by their members and the need
for intervention by this Court to prevent further
abuses of this procedural device.
INTRODUCTION AND
SUMMARY OF ARGUMENT
This Court has recognized that, under some circumstances, joinder of defendants in a criminal trial
can deprive the defendants of their Fifth Amendment
rights to a fair trial. United States v. Lane, 474 U.S.
438, 446-449 (1986). And the Court also has recognized that the mass joinder of claims by means of the
class action device can likewise result in procedural
unfairness. See, e.g., Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338, 367 (2011) (courts may not certify a class

3
“on the premise that [the defendant] will not be entitled to litigate its … defenses to individual claims”).2
But the Court has yet to address the due process implications of permitting the joinder of multiple plaintiffs in a single civil trial. This case provides an ideal
vehicle to confront this growing problem.
Overcrowding of both federal and state-court systems is a fact of modern life. So too is the sometimes
prohibitive cost of litigating individual cases. Attempts to address these practical concerns, however,
must always be consistent with the due process rights
of litigants. After all, it is a central guarantee of the
Fifth and Fourteenth Amendments that governmental entities may deprive defendants of their property
only through procedures that ensure due process,
while the Constitution says nothing about the efficiency or cost-effectiveness of litigation. When, as happened here, a procedure of convenience interferes with
a defendant’s ability to put on a full and fair defense
or creates structural biases that favor the plaintiff,
that procedure must be rejected as being inconsistent
with the constitutional guarantee of due process for
all litigants.
The Missouri courts lost sight of the constitutional
interests that are at stake, reducing petitioners’ due
process rights to a bare requirement that the jury be
instructed to decide each plaintiff’s claim on its own
See also, e.g., Philip Morris USA Inc. v. Scott, 561 U.S. 1301,
1303-1304 (2010) (Scalia, J., in chambers) (“The extent to which
class treatment may constitutionally reduce the normal requirements of due process is an important question. National concern
over abuse of the class-action device induced Congress to permit
removal of most major class actions to federal court … where
they will be subject to the significant limitation of the Federal
Rules.”).

2

4
merits. The bromide that jurors are presumed to follow their instructions has its place, but instructions
cannot cure all ills. That is evident in the verdict here,
which awarded each of the 22 plaintiffs an identical
amount as compensation for what indisputably are
widely varying injuries. And the only plausible explanation for the eye-popping punitive award is that the
jury was overwhelmed and inflamed by the sheer
number of genuinely suffering plaintiffs paraded before it.
Not only does this case squarely present an important, recurring constitutional problem, but it
arises at a time when the problem is likely to intensify
if it is not urgently addressed. The backlog of cases
resulting from the shuttering of most trial courts during the pandemic is certain to generate additional
pressure on already overburdened court systems. As
courts begin to reopen, that pressure will bring renewed urgency to questions about the proper use of
joinder and other procedural devices intended to address court congestion.3
ARGUMENT
A. The Improper Joinder Of Civil Cases For
Trial Is A Threat To Due Process.
The structural and psychological effects of joining
myriad plaintiffs’ cases together in one trial are significant and uniformly unfavorable to the defendant.
Although amici’s brief focuses on the issue of improper joinder
of claims, amici agree with petitioners that Missouri courts improperly found specific personal jurisdiction to exist with respect
to plaintiffs who did not purchase, use, or suffer injury from petitioners’ products in Missouri. Amici also agree with petitioners
that the shocking amount of punitive damages upheld in this
case is inconsistent with this Court’s precedents.

3

5
The repetition of 22 plaintiffs’ accounts lends undue
weight to the emotional aspects of a personal injury
case. Worse still, that repetition appears to generate
evidence of causation by creating a false cohort of individuals who appear to share only two things: product use and disease. Joinder also crowds out any
plaintiff-specific issues by forcing the defendant to devote finite resources to those issues that affect all of
the cases in the proceeding. There is also an inevitable
blurring of facts when so many plaintiffs are joined
together, allowing plaintiffs’ counsel to present a composite picture based on the strongest aspects of individual cases. And the same kind of blurring occurs
with the applicable legal principles when, as here, the
individual claims are governed by a dozen State’s
laws. Finally, the aggregation of so many cases for an
“immature” tort like this one deprives the parties of
useful information about the merits and value of individual cases and places undue weight on a single proceeding.
1. Joinder creates a tilted playing field that
favors plaintiffs through the repetition of
fact patterns and claims.
The jury here saw 22 women or their surviving
families tell emotionally fraught stories of each
woman suffering through, or even dying from, a terrible disease. And each of those 22 plaintiffs, one after
the other, blamed petitioners’ products for the suffering that they described. There is, of course, a risk that
juror sympathy will play a role in attribution of liability or the size of damage awards in any personal-injury litigation. Well-intentioned and properly instructed jurors, however, are usually able to rise
above the emotional pull of a case and reach a verdict
based on the evidence presented to them. But at some

6
point, it becomes unreasonable to expect jurors to
avoid being influenced by the emotional barrage to
which they have been subjected.
Moreover, the prejudice created by the repetition
of fact patterns and allegations is even greater—and
less defensible—in cases like these, in which there is
a dispute about general causation. Petitioners’ products are common household goods that have been used
for decades by millions of women. Pet. 5. And each
year over 20,000 women are diagnosed with ovarian
cancer. American Cancer Society, Key Statistics for
Ovarian Cancer (Jan. 12, 2021), www.cancer.org/cancer/ovarian-cancer/about/key-statistics.html. It is
thus expected that a significant number of the millions of women who have used petitioners’ products
unfortunately will later develop ovarian cancer—and
countless other health conditions for that matter. Correlation, of course, does not equate with causation. To
the contrary, overlapping populations exist for any
widely available consumer product and all but the rarest diseases. It is a question for epidemiological research whether the use of petitioners’ products results
in an increased incidence of ovarian cancer.
However, when a jury is presented with an artificial cohort of 22 women who developed ovarian cancer
and appear to have nothing else in common besides
use of petitioners’ products, the inference of causation
is natural and compelling, even if scientifically baseless. The systemic bias created by joining so many
plaintiffs together for trial is prejudicial to the defense
precisely because that false inference of causation is
so effective.
First, the simple repetition of a correlation between product use and disease in 22 out of 22 cases

7
presented in the courtroom will intuitively dispose jurors to believe that there is a causal relationship. The
jurors will hear scholarly accounts of statistical studies conducted by experts, but there are 22 real people
in front of them whose detailed stories appear to
demonstrate a compelling statistical association between the product and the disease. And the larger the
cohort of plaintiffs, the more likely it becomes that the
jurors will believe that it is simply “too much of a coincidence” that every one of the plaintiffs used the
product and then developed the disease. That reasoning is scientifically unsound, but psychologically compelling when plaintiff after plaintiff conforms to the
pattern.
Second, while plaintiffs’ allegations offer an easy
and uniform solution to the question of why these 22
women developed ovarian cancer, the alternative explanation offered by the defendants is necessarily
complex, varied, and unsatisfying because the truth—
according to the American Cancer Society—is that
“[w]e don’t yet know exactly what causes most ovarian
cancers.” American Cancer Society, What Causes
Ovarian Cancer? (Jan. 12, 2021), www.cancer.org/cancer/ovarian-cancer/causes-risks-prevention/whatcauses.html. In an individual trial, there is no structural impediment to the jury accepting that the causes
of a plaintiff’s disease are complex and may be idiopathic. But when the claims of multiple plaintiffs who
have the same condition and used the same product
are joined together for trial, there is a grave risk that
the structure of the trial itself (not dispassionate consideration of the evidence) will cause the jury to reject
the defendants’ complex, individualized explanations
in favor of the plaintiffs’ simple, yet unscientific one.

8
Plaintiffs’ counsel in this case were fully aware of
and brazenly exploited the psychological biases created by their successful request to join so many cases
in one trial. They openly encouraged the jurors to rely
on the false courtroom epidemiological study that they
had created through joinder and find that petitioners’
products cause ovarian cancer because all 22 plaintiffs
had two things in common: product use and ovarian
cancer.4 Pet. App. 152a (“[A]ll of these women have
something in common. All of them used regularly and
extensively Johnson & Johnson Baby Powder and had
to listen when a doctor said to them: You’ve got cancer.
… Now, all of these women have had that … and what
you’ve got to do in your position in this case is figure
out why.”). Of course, the statistical correlation emphasized by plaintiffs’ counsel is entirely attributable
to selection bias. The only reason that all 22 plaintiffs
share the traits of having used Petitioners’ products
and then developed ovarian cancer is that plaintiffs’
counsel picked individuals from across the country
who possessed those two traits and brought them together for a single trial. No court would admit the testimony of an expert who endorsed such a causal inference from a self-selected cohort of plaintiffs, but a joint
trial in which so many plaintiffs’ claims were presented together allowed counsel to fabricate this supposed evidence of causation out of the structure of the
trial itself.

The actual epidemiological studies that have been conducted—
involving tens of thousands of randomly selected women and appropriate scientific methods and controls—have found that there
is not a meaningful relationship between use of petitioners’ products and ovarian cancer. Pet. 5-6.
4

9
2. Joinder compromises the defendant’s ability to present individual issues.
When a defendant is forced to address numerous
individuals’ claims in a single proceeding, the abandonment of meritorious arguments specific to individual plaintiffs is inevitable. The time allotted for trials,
the attention of jurors, the patience of judges, and the
length allowed for briefs all are finite. The larger the
number of cases that have been forced into a single
proceeding, the more arguments and evidence must be
sacrificed on the altar of efficiency.
In this case, for example, seven plaintiffs’ claims
are governed by the laws of States that have imposed
statutory caps on the amount of punitive damages.5
•

Plaintiffs Groover’s and Kim’s claims are subject to a cap of five times the compensatory
award under New Jersey law. N.J. Stat. Ann.
§ 2A:15-g.14(b) (West 2021) (“No defendant
shall be liable for punitive damages in any action in an amount in excess of five times the
liability of that defendant for compensatory
damages or $350,000, whichever is greater.”);
Neale v. Volvo Cars of N. Am., LLC, 794 F.3d
353, 358 n.1 (3d Cir. 2015) (assuming that total
punitive award against members of corporate
family was capped at five times the total compensatory damages under New Jersey law).

•

Plaintiff Martin’s claims are subject to a cap of
three times the compensatory award under

Plaintiff Owens’s claims also were subject to a statutory cap
on punitive damages under North Carolina law. N.C. Gen. Stat.
Ann. § 1D-25(b) (West 2021). The Missouri Court of Appeals dismissed her claims for lack of personal jurisdiction. Pet. App.
105a.
5

10
South Carolina law. S.C. Code Ann. § 15-32530(A) (2021) (“[A]n award of punitive damages may not exceed the greater of three times
the amount of compensatory damages awarded
to each claimant entitled thereto or the sum of
five hundred thousand dollars.”).
•

Plaintiffs Martinez’s and Zschiesche’s claims
are subject to a cap of $750,000 from each defendant under Texas law because the compensatory damages were entirely non-economic in
nature. Tex. Civ. Prac. & Rem. Code
§ 41.008(b) (West 2021) (“Exemplary damages
awarded against a defendant may not exceed
an amount equal to the greater of: (1)(A) two
times the amount of economic damages; plus
(B) an amount equal to any noneconomic damages found by the jury, not to exceed $750,000;
or (2) $200,000.”).

•

Plaintiff Oxford’s claims are subject to a cap of
two times the compensatory award under
North Dakota law. N.D. Cent. Code § 32-03.211.4 (West 2021) (“[T]he amount of exemplary
damages may not exceed two times the amount
of compensatory damages or two hundred fifty
thousand dollars, whichever is greater.”).

•

Plaintiff Schwartz-Thomas’s claims are subject to a $350,000 cap on total punitive damages under Virginia law. Va. Code Ann. § 8.0138.1 (West 2021) (“In no event shall the total
amount awarded for punitive damages exceed
$350,000.”); Crouse v. Med. Facilities of Am.
XLVIII, 86 Va. Cir. 168 (2013) (reducing punitive damages for jointly and severally liable defendants to a total of $350,000).

11
Petitioners raised these state-law caps on punitive damages in their post-trial motion for a new trial
or remittitur.6 The trial court, however, did not address the issue in its order denying petitioners’ posttrial motions. Pet. App. 116a-18a. Faced with a limited amount of space in their appellate brief and a long
list of issues that could impact liability or damages in
all 22 cases, as opposed to only the seven cases covered
by an applicable cap statute, petitioners evidently
elected not to raise the state-law caps on appeal.7 Petitioners obviously would not have made that choice if
Defendants Johnson & Johnson and Johnson & Johnson Consumer Inc.’s Motion and Memorandum of Law in Support of Motion for New Trials on Damages or, in the Alternative, Remittitur
at 28-32, Ingham v. Johnson & Johnson, No. 1522-CC10417-01
(Mo. Cir. Ct. Dec. 19, 2018).
6

The Missouri Court of Appeals granted petitioners’ motion for
leave to file a brief of up to 33,000 words—1,500 words per plaintiff—but said that it was “not inclined to grant further … requests from Appellants to exceed word limitations for the Appellants’ Brief.” Ingham v. Johnson & Johnson, No. ED107476 (Mo.
Ct. App. Aug. 27, 2019) (order granting motion to exceed word
limit). Although 33,000 words may seem like a lot, Missouri requires that “[a]ll material contained in the brief except the cover,
any certificate …, signature block and appendix count toward the
word limitations.” Mo. R. Civ. P. 84.06(b). That includes “[a] detailed table of contents,” a table of authorities, and “[t]he points
relied on,” which must be stated in formulaic fashion, requiring
dozens of words for each point raised. Mo. R. Civ. P. 84.04(a), (d).
In addition, for each point relied on, the brief must include a list
of up to four authorities upon which the party principally relies.
Mo. R. Civ. P. 84.04(d)(5). Other requirements also chew up
space. See, e.g., Mo. R. Civ. P. 84.04(e) (requiring any challenged
jury instructions to be quoted in full). To make matters worse,
the Missouri appellate courts strictly enforce these requirements. See, e.g., Nelson v. Nelson, 195 S.W.3d 502, 514 (Mo. Ct.
App. 2006) (dismissing point of error for failure to articulate it in
prescribed manner).
7

12
they were appealing from a judgment in favor of a single plaintiff.
Petitioners also had to forgo record-intensive arguments specific to individual plaintiffs. They simply
did not have the space to present fact-specific arguments on a plaintiff-by-plaintiff basis regarding the
statute of limitations, causation, or excessiveness of
compensatory damages. Those arguments would have
required lengthy recitations of facts and discussions
of the applicable law of numerous States.8 Petitioners
had no realistic choice but to devote the limited space
they had been afforded on appeal to issues that could
provide relief as to all or most of the 22 plaintiffs.
When a defendant is forced to abandon meritorious factual or legal issues simply because they cannot
be generalized to a broad group of plaintiffs joined together for trial, it is a disservice to the truth-finding
function of the legal system. “Due process requires
that there be an opportunity to present every available defense.” Am. Surety Co. v. Baldwin, 287 U.S. 156,
168 (1932). While this guarantee does not negate reasonable limitations on the process of litigation, it
surely demands that parties have a practical and fair

For example, Petitioners’ post-trial motion for judgment argued that ten plaintiffs’ claims were untimely under the applicable laws of nine different states. Defendants Johnson & Johnson
and Johnson & Johnson Consumer Inc.’s Motion and Memorandum of Law in Support of Motion for Judgment Notwithstanding
the Verdict at 39-53, Ingham v. Johnson & Johnson, No. 1522CC10417-01 (Mo. Cir. Ct. Dec. 19, 2018). The trial court dismissed this categorically as “a fact issue for the jury to decide.”
Pet. App. 111a-12a. Petitioners then evidently made a strategic
decision not to use the limited word allotment they had on appeal
to raise this record-intensive and plaintiff-specific issue.
8

13
opportunity to present fundamental case-specific issues such as timeliness, sufficiency of the evidence,
excessiveness, and statutory caps on damages.
3. Joinder allows plaintiffs to present a composite picture that obscures weaknesses in
individual claims.
Not only does joinder of numerous claims force defendants to abandon factual and legal issues related
to individual plaintiffs in favor of those that affect the
joined cases as a whole, it allows plaintiffs to create a
composite picture of the plaintiffs that obscures factual or legal weaknesses in the individual claims.
Courts rejecting requests to join or consolidate
cases have done so in part out of concern about the
blurring of evidence that inevitably occurs in such proceedings. As one court explained, “jurors considering
a particular plaintiff might be prejudiced by the evidence presented on behalf of the other plaintiffs, since
they would be permitted to hear allegations … not relevant to the particular plaintiff’s case.” Hasman v.
G.D. Searle & Co., 106 F.R.D. 459, 461 (E.D. Mich.
1985). Consequently, “the jury’s verdict might not be
based on the merits of the individual cases but could
potentially be a product of cumulative confusion and
prejudice.” Ibid; see also, e.g., Cantrell v. GAF Corp.,
999 F.2d 1007, 1011 (6th Cir. 1993) (“Evidence relevant only to the causation of one plaintiff’s cancer may
[mistakenly] indicate to the jury that the other plaintiff will likely develop cancer in the future.”); Leeds v.
Matrixx Initiatives, Inc., No. 2:10cv199, 2012 WL
1119220, at *3 (D. Utah Apr. 2, 2012) (“differences in
each Plaintiff’s ability to identify their manner of use
and reactions to [the defendant’s] products … raise
concerns for potential prejudice in defending against
various allegations”); In re Consolidated Parlodel

14
Litig., 182 F.R.D. 441, 447 (D.N.J. 1998) (“[a] consolidated trial of these fourteen cases would compress
critical evidence of specific causation and marketing
to a level which would deprive [the defendant] of a fair
opportunity to defend itself”).
This phenomenon is evident here in the jury’s failure to draw any distinctions among 22 plaintiffs with
widely divergent medical backgrounds, histories of
product use, and injuries. Most obviously, it is patent
in the identical compensatory awards returned by the
jury. Plaintiff Ingham, for example, was diagnosed
with ovarian cancer in 1985, went into remission the
next year, and has been cancer-free ever since. She
considers herself “fortunate,” and plaintiffs’ counsel
described her as a “success story.” Defs.’ Mot. for Remittitur, supra n.6, at 7. Ms. Packard, on the other
hand, underwent approximately 60 applications of
chemotherapy over ten years, experienced intense and
prolonged suffering, and ultimately passed away from
the cancer. Ibid. The jury awarded each of them
$25,000,000 (and the same amount to the other 20
plaintiffs as well). As one court explained in remarkably similar circumstances involving joinder of 13 civil
actions for trial, “[i]t is inconceivable … that a
properly functioning jury could have awarded the
same amount in each case”—“[i]t appears that the
jury simply lumped the personal injury plaintiffs [together] and gave plaintiffs … the same amount of
compensatory damages no matter what their injuries.” Cain v. Armstrong World Indus., 785 F. Supp.
1448, 1455 (S.D. Ala. 1992); see also, e.g., Malcolm v.
Nat’l Gypsum Co., 995 F.2d 346, 352 (2d Cir. 1993)
(there was “an unacceptably strong chance” that identical verdicts in the face of distinct facts “amounted to
the jury throwing up its hands in the face of a torrent
of evidence”).

15
If it is “inconceivable” that a properly functioning
jury could award the same amount of compensatory
damages to 13 plaintiffs—and it surely is—then it is
beyond absurd to suggest that a properly functioning
jury could award the same amount to 22 plaintiffs. Instead, the jury’s choice to bestow on each of 22 plaintiffs the same massive, round-number damages award
is proof positive that adjudicating the claims of these
disparate plaintiffs in a single trial distorted the outcome in violation of petitioners’ due process rights.
The more cases that are presented one after the
other in an increasingly lengthy consolidated proceeding, the harder it becomes for even a well-intentioned
jury to recall and maintain focus on the distinctions
among the manifold plaintiffs. At the same time, the
more claims that are included in a joint trial, the easier it becomes for plaintiffs’ counsel to paper over
weaknesses in individual cases and encourage the
jury to reach a verdict based on a composite picture
that incorporates the strongest aspects of individual
plaintiffs’ cases. As the Fourth Circuit has held in the
context of class actions, procedural devices should not
allow plaintiffs’ counsel to litigate “on behalf of a ‘perfect plaintiff’ pieced together for litigation,” forcing
the defendant “to defend against [that] fictional composite.” Broussard v. Meineke Discount Muffler Shops,
Inc., 155 F.3d 331, 344-345 (4th Cir. 1998). That is just
as true for joinder as it is for class actions.
4. Joinder of claims governed by the laws of
different States inevitably eliminates or
obscures distinctions in the law.
The prejudicial effects of joinder are not limited to
evidentiary issues. When a joinder, like the one at issue here, brings together plaintiffs whose claims are

16
governed by the laws of a dozen different States, distinctions in the applicable law inevitably are lost or
ignored.
Even (or perhaps especially) when the jurors are
instructed on the law applicable to each plaintiff’s
claim over the course of five hours, it is inevitable that
they will fail to understand, remember, or focus on legal distinctions that apply to only one or two of the 22
plaintiffs before them.
Indeed, even courts are not immune to overlooking significant distinctions in the applicable law when
there are so many moving parts in play. Here, for example, the Missouri Court of Appeals affirmed the punitive-liability verdict as to all plaintiffs, in part, because it refused “to entertain evidence and inferences
from the evidence contrary to the jury’s verdict,” noting that considering the defendant’s evidence would
“defy[] our standard of review.” Pet. App. 92a. That
may be the standard applicable to the Missouri plaintiffs, but it is not the standard that governs the claims
of out-of-state plaintiffs like California residents
Brook and Goldman. See Johnson & Johnson Talcum
Powder Cases, 37 Cal. App. 5th 292, 332-335 (2019)
(affirming judgment as a matter of law for petitioners
on the issue of punitive liability based, in part, on evidence contrary to the jury’s verdict that the Missouri
Court of Appeals refused to consider).
5. For an “immature” mass tort, joinder eliminates natural variation and opportunities
to gain information about the merits and
value of the claim.
Although avoidance of inconsistent results is often
cited as a benefit of consolidated proceedings, that

17
may be so only for litigation in which consistent outcomes is desirable. In relatively novel and evolving
mass-tort litigation like this, there is no valid reason
to prefer consistency. On the contrary, the parties and
the judicial system benefit from allowing the litigation
to evolve naturally through individual, potentially
varying outcomes.
The Manual for Complex Litigation defines a “mature” mass tort as one as to which “little or no new
evidence is likely, appellate review of novel legal issues has been completed, and a full cycle of trial strategies has been explored.” Manual for Complex Litigation, Fourth § 22.314 (June 2004). The claim that petitioners’ baby-powder products cause ovarian cancer
is far from settled into the mold of a mature mass tort.
Defendants and plaintiffs each have prevailed on the
question of liability in the individual trials conducted
so far. And when plaintiffs have prevailed, the cases
have reached different conclusions about the appropriate amount of compensatory damages and the
availability and amount of punitive damages. This
variation is both natural for a relatively novel claim
and useful for parties attempting to evaluate the merits and value of claims in a mass litigation involving a
product that was used by millions of people.
Courts have recognized that “‘[f]airness may demand that mass torts with few prior verdicts or judgments be litigated first in smaller units.’” Castano v.
Am. Tobacco Co., 84 F.3d 734, 748 (5th Cir. 1996) (citation omitted). That is because “[i]f there are few
prior verdicts, judgments, or settlements, additional
information may be needed to determine whether aggregation is appropriate.” Manual for Complex Litigation, Fourth § 22.314; see also, e.g., In re Allied Chem.
Corp., 227 S.W.3d 652, 654 (Tex. 2007) (“trial courts

18
should ‘proceed with extreme caution’ in setting consolidated trials in immature mass torts”) (citation
omitted); In re Bristol–Myers Squibb Co., 975 S.W.2d
601, 603 (Tex. 1998) (“Until enough trials have occurred so that the contours of various types of claims
within the … litigation are known, courts should proceed with extreme caution in consolidating claims.”).
The joint proceeding here deprived the parties of
an opportunity to gather individualized information
about the merits and value of claims by 22 plaintiffs
with widely divergent medical backgrounds, product
use histories, and injuries. Instead, all 22 plaintiffs
were forced into a single mold and treated by the jury
as mere multipliers for an arbitrary damages figure.
B. Federal Courts Have Recognized That
Due Process Imposes Limits On The Use
Of Joinder In Civil Trials.
For many of the foregoing reasons, federal courts
have consistently recognized the danger to litigants’
due process rights when cases are joined together for
trial over the objection of one of the parties. The Second Circuit, for example, has cautioned that “‘[t]he
systemic urge to aggregate litigation must not be allowed to trump our dedication to individual justice’”
and that “[t]he benefits of efficiency can never be purchased at the cost of fairness.” Malcolm, 995 F.2d at
350 (citation omitted); see also, e.g., In re Brooklyn
Navy Yard Asbestos Litig., 971 F.2d 831, 853 (2d Cir.
1992) (“[W]e are mindful of the dangers of a streamlined trial process in which testimony must be curtailed and jurors must assimilate vast amounts of information. … [W]e must take care that each individual plaintiff’s—and defendant’s—cause not be lost in
the shadow of a towering mass litigation.”); Arnold v.
Eastern Air Lines, Inc., 712 F.2d 899, 906 (4th Cir.

19
1983) (“a trial must remain fair to both parties, and
such considerations of convenience may not prevail
where the inevitable consequence to another party is
harmful and serious prejudice”); Dupont v. S. Pac. Co.,
366 F.2d 193, 196 (5th Cir. 1966) (“the trial judge
should be most cautious not to abuse his judicial discretion and to make sure that the rights of the parties
are not prejudiced by the order of consolidation under
the facts and circumstances of the particular case”).
Demonstrating the primary importance of a defendant’s due process rights, courts have overturned
judgments when too many claims were joined together, resulting in proceedings that interfered with
the defendants’ ability to put on a full and fair defense
of each plaintiff’s claim. They have done so even when
the trial courts went to great lengths to preserve the
integrity of each claim, including repeatedly instructing the jury to treat each plaintiff’s claim separately.
In Malcolm, for example, the Second Circuit overturned a judgment in a trial of the claims of 48 plaintiffs alleging asbestos-related injuries, although all
but two of the plaintiffs had settled by the end of trial.
995 F.2d at 348-349. The court observed that “the jury
was presented with a dizzying amount of evidence regarding each victim’s work history,” “[a] parade of
medical doctors” and “[e]conomists,” and “evidence of
the debilitating diseases and/or deaths of all 48 plaintiffs.” Id. at 348-349. The court noted that “[t]he district court and the lawyers valiantly attempted to
maintain the identity of each claim throughout the
trial,” including by instructing the jury “on several occasions to consider each case separately.” Id. at 349.
Nevertheless, the court concluded that “the sheer
breadth of the evidence made these precautions feckless in preventing jury confusion.” Id. at 352.

20
Similarly, after presiding over a joint trial of 13
asbestos cases, a federal district court granted a new
trial upon assessing the fallout. Cain, 785 F. Supp. at
1455-1457. The court concluded that, “despite all the
precautionary measures taken by the Court (e.g., juror notebooks, cautionary instructions before, during
and after the presentation of evidence, special interrogatory forms) the joint trial of such a large number
of differing cases both confused and prejudiced the
jury.” Id. at 1455. The court reached this conclusion,
in part, because “[i]t appear[ed] that the jury simply
lumped the personal injury plaintiffs into two categories and gave plaintiffs in each category the same
amount of compensatory damages no matter what
their injuries.” Ibid. The court thought it “inconceivable … that a properly functioning jury could have
awarded the same amount in each case.” Ibid.
As these and other cases have recognized, the due
process rights of litigants must take precedence over
procedures intended to address practical issues like
court congestion and the costs of litigation.
And although a defendant’s due process rights can
never simply be set aside to create efficiencies for
plaintiffs or courts, it is worth noting that the purported efficiency benefits of joinder are often illusory
or overblown. This is a case in point. As the verdicts
returned by the jury here confirm beyond any doubt,
these cases can be cost-effectively litigated on an individual basis. The amount at stake for each plaintiff is
more than sufficient to justify the time and attention
of an individual trial that allows the parties to fully
develop the factual and legal disputes specific to that
plaintiff’s claim. Moreover, the joinder of claims that
was requested by plaintiffs here was not a response to

21
the natural overburdening of the Missouri court system. On the contrary, plaintiffs’ counsel intentionally
pulled cases from across the country into this court
precisely so that they could join them together for
trial. Such a “strategic” use of joinder is a clear warning that the due process rights of the defendant are at
risk and a sure sign that the countervailing practical
interests in judicial efficiency are insufficient to overcome the danger of prejudice to the defendant.
Given plaintiffs’ strategic use of joinder, it should
not be surprising that, as described above, this case
exemplifies the numerous ways in which joinder can
prevent a defendant from putting on a full and fair
defense and unjustifiably tilt the playing field in favor
of the plaintiffs.
C. This Court’s Guidance Is Needed To Establish Due Process Limitations On The
Use Of Joinder.
The Missouri Court of Appeals held that any prejudice caused to petitioners by the joinder of 22 plaintiffs’ claims was cured because “the trial court instructed the jury to consider each Plaintiff’s claim on
its own merits,” and “in over 140 pages of trial transcript, read the jury instructions for each individual
Plaintiff to the jury.” Pet. App. 14a. The court was satisfied that this protected petitioners’ right to a fair
trial because “[w]e presume the jury followed the trial
court’s instruction in reaching its verdict.” Pet. App.
18a. Even the fact that the jury awarded all 22 plaintiffs precisely the same round amount of compensatory damages—ignoring obvious and significant differences in the harm alleged by individual plaintiffs—
was not enough to overcome the court’s faith in instructions as a panacea. Under that logic, there are no
practical limits on the number of cases that could be

22
joined together for trial, so long as the trial court is
willing to go through the protracted and mind-numbing exercise of instructing the jury on the law governing each plaintiff’s claim.
The use of large multi-plaintiff joint trials to clear
overburdened dockets already is a significant issue in
certain courts.9 Given the remarkable success of this
strategic use of joinder from plaintiffs’ point of view,
there is no doubt that other similarly large, or even
more ambitious, attempts to join cases together for
trial will follow. And if other jurisdictions believe that
Missouri’s approach is consistent with due process,
the temptation to use increasingly large joint trials as
a method for addressing court congestion and clearing
dockets will only increase.
CONCLUSION
The Court should grant the petition.

E.g., 2012 Asbestos Case Management Order with Attached
Exhibits at 4, In re: Asbestos Pers. Injury Litig., No. 03-C-9600
(W. Va. Cir. Ct. Jan. 6, 2012), www.courtswv.gov/lower-courts/
mlp/mlp-orders/asbestos-2012-CMO.pdf (“[c]ases processed under this Order will be combined into ‘Trial Groups’ … of twenty
(20)”).
9

Respectfully submitted.
PATRICK HEDREN
ERICA KLENICKI
Manufacturers’ Center
for Legal Action
733 10 Street, NW,
Suite 700
Washington, DC 20001
Counsel for Amicus Curiae the National Association of Manufacturers
H. SHERMAN JOYCE
LAUREN S. JARRELL
American Tort Reform
Association
1101 Connecticut Ave.,
NW, Suite 400
Washington, DC 20036
Counsel for Amicus Curiae the American Tort
Reform Association

EVAN M. TAGER
Counsel of Record
CARL J. SUMMERS
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
etager@mayerbrown.com
TARA S. MORRISSEY
JENNIFER B. DICKEY
U.S. Chamber
Litigation Center
1615 H Street, NW
Washington, DC 20062
Counsel for Amicus Curiae
the Chamber of Commerce
of the United States of
America

KENNETH STOLLER
American Property Casualty Insurance AssociaMARK BEHRENS
tion
Shook, Hardy & Bacon
555
12th Street, NW,
L.L.P.
Suite 550
1800 K Street, NW,
Washington, DC 20004
Suite 1000
Washington, DC 20006 Counsel for Amicus Curiae
Counsel for Amicus Cu- American Property Casuriae Coalition for Litiga- alty Insurance Association
tion Justice, Inc.

2a
ELIZABETH DOUGHERTY
Business Roundtable
1000 Maine Avenue,
SW, Suite 500
Washington, DC 20024
Counsel for Amicus Curiae Business Roundtable

APRIL 2021

JAMES C. STANSEL
MELISSA B. KIMMEL
Pharmaceutical Research
and Manufacturers of
America
950 F Street, NW,
Suite 300
Washington, DC 20004
Counsel for Amicus Curiae
Pharmaceutical Research
and Manufacturers of
America

